                                                                                                                GLOSSARY I APPENDIX A I JULY 21, 2009              1




GLOSSARY
This appendix provides a glossary of terms that are used throughout the context of this report.

504 Community Development Loan Program: SBA program combining                    Credit Default Swap (“CDS”): A contract where the seller receives a series
Government-guaranteed loans with private-sector mortgage loans to provide        of payments from the buyer in return for agreeing to make a payment to the
loans of up to $10 million for community development.                            buyer when a particular credit event outlined in the contract occurs (for
                                                                                 example, if the credit rating on a particular bond or loan is downgraded or
7(a) Program: SBA loan program guaranteeing a percentage of loans for            goes into default). It is commonly referred to as an insurance product where
small businesses that cannot otherwise obtain conventional loans at reason-      the seller is providing the buyer insurance against the failure of a bond. The
able terms.                                                                      buyer, however, does not need to own the asset covered by the contract,
                                                                                 which means it can serve essentially as a “bet” against the underlying bond.
Amortization Schedule: A complete schedule of periodic blended loan
payments, showing the amount of principal and the amount of interest in          Creditor: A person or entity that is owed money by another person or entity.
each payment so that the loan will be paid off over a certain time period.
                                                                                 Creditors’ Committee: A group representing several entities that have claims
Asset Coverage Test: A requirement that the total assets of a PPIF be            against a business in a bankruptcy proceeding.
proportionally larger than total debt. In the case of PPIP, the asset coverage
ratio is calculated as: ([the market value of the assets held by the PPIF] +     Cumulative Preferred Stock: A type of stock that requires a defined divi-
[the market value of any assets held by a subsidiary] – [any debt associated     dend payment. If the company does not pay the dividend, it still owes the
with those subsidiary assets]) / the total debt.                                 missed dividends to the owner of the stock.

Asset Crossing: Buying or selling assets from affiliates, either directly or     CUSIP: Unique identifying number assigned to all registered securities in
through third parties.                                                           the United States and Canada.

Asset Flipping: Buying securities with the intention of reselling these assets   Debtor-in-Possession (“DIP”) Financing: A credit line used during Chapter
in the short term.                                                               11 proceedings to maintain the value of a company’s asset base.

Asset-Backed Securities (“ABS”): A tradable security backed by a pool of         Debtor-in-Possession (“DIP”): A company which is operating under
loans, leases, or any other cash-flow producing assets.                          Chapter 11 bankruptcy protection, which still technically owns its assets but
                                                                                 is operating them to maximize the benefit to its creditors.
Back-End Debt-to-Income (“DTI”) Ratio: Indicates the percentage of an
income that is used to pay debts.                                                Derivative: A financial instrument whose value is based on (“derived from”)
                                                                                 a different underlying asset, indicator, or financial instrument.
Back-End DTI Ratio: Back-End DTI Ratio = Total Monthly Debt
Expense / Gross Monthly Income                                                   Discharge: A court action that releases a debtor from liability for certain
                                                                                 types of debts.
Bank Holding Company (“BHC”): A company that controls a bank.
Typically, a company controls a bank through the ownership of 25% or more        Discount Window: Federal Reserve facility that lends short-term money
of its voting securities.                                                        directly to eligible institutions.

Bullet Payment: A one-time, lump-sum repayment of an outstanding loan,           Equity Capital Facility: A commitment to invest equity capital in a firm
typically made by the borrower after very little, if any, amortization of the    under certain future conditions.
loan.
                                                                                 Exceptional Assistance: Companies receiving assistance under the programs
Collateral: Tangible assets pledged against debts owed.                          for SSFI, TIP, AGP, AIFP, and any future Treasury program designated by
                                                                                 the Secretary as providing exceptional assistance. Currently includes AIG,
Collateral Monitor: Independent third party engaged by the Federal Reserve       Citigroup, Bank of America, GM, GMAC, Chrysler, and Chrysler Financial.
to assess the riskiness of the underlying mortgage pools.
                                                                                 Exchange: In reference to Citigroup agreement, taking one type of stock
Collateralized Debt Obligation (“CDO”): A financial instrument that              (e.g., preferred) and converting it at a specific rate to another type of stock
entitles the purchaser to some portion of the cash flows from a portfolio of     (e.g., common).
assets, which may include bonds, loans, mortgage-backed securities, or other
CDOs.                                                                            Fair Market Value: The price that a knowledgeable buyer and a knowledge-
                                                                                 able seller would be able to agree upon in the open market, provided that
Commercial Mortgage-Backed Securities (“CMBS”): A financial instru-              both have access to sufficient information.
ment that is backed by a commercial real estate mortgage or a group of
commercial real estate mortgages that are packaged together.                     Federal Banking Agency (“FBA”): One of four agencies:
                                                                                 1) Comptroller of the Currency
Composition: A settlement reached between a debtor and a creditor prior to       2) Board of Governors of the Federal Reserve System
bankruptcy. The settlement discharges the debt owed to the creditor for an       3) Federal Deposit Insurance Corporation
amount less than the original amount owed.                                       4) Office of Thrift Supervision

Coupon Rate: Interest rate to be paid as a percentage of the face value of       Federal Funds Rate: The rate at which depository institutions lend to each
the security. For example, if a $100 security has an 8% coupon, the owner of     other overnight to immediately fill shortages.
the security will receive $8 annually for the life of the security.
2              APPENDIX A I GLOSSARY I JULY 21, 2009



    Fiduciary Duty: A duty obligating a fiduciary (an individual or business in a         Leverage on Leverage: Refers to the original design of PPIP in which a
    position of authority who acts on behalf of another individual — an agent or          private investor could borrow Government debt through PPIP and then
    trustee) to act with loyalty and honesty and in a manner consistent with the          leverage its equity and the Government debt with more Government debt
    best interests of the other individual.                                               through TALF.

    Financial Accounting Standard 157-4 (“FAS157-4”): On April 9, 2009,                   Leverage Ratio Test: A limit to the total debt that a PPIF is allowed to carry.
    FASB issued FAS 157-4 to offer more clarity on valuing and accounting for             Calculated as: total debt / net assets.
    assets in an inactive market when pricing represents distressed conditions.
                                                                                          Liquidation: The sale of a company’s assets in order to pay off outstanding
    Financial Accounting Standards Board (“FASB”): Established in 1973,                   debts with the remaining amount being distributed to shareholders. Once
    FASB is the regulatory body responsible for establishing rules for financial          this process is complete, the company goes out of business.
    accounting and the reporting of public, private, and not-for-profit companies.
    Those standards “govern the preparation of financial reports and are officially       Loan-to-Value (“LTV”) Ratio: In real estate lending, the outstanding
    recognized as authoritative by the Securities and Exchange Commission                 principal amount of the loan divided by the appraised value of the property
    [“SEC”] and the American Institute of Certified Public Accountants [regula-           underlying the loan.
    tors].” These standards are necessary for investors, creditors, and others to
    rely on the accuracy, transparency, timeliness, and comparability of financial        Loss Carry-Forward: Technique used to apply a loss from the current year
    statements.                                                                           to a future year in order to reduce the company’s future tax liability.

    Floorplan: Revolving lines of credit used to finance inventories of items.            Mandatorily Convertible Preferred: A type of preferred share (ownership in
                                                                                          a company that generally entitles the owner of the shares to collect dividend
    Fraud Enforcement Recovery Act of 2009, Public Law No. 111-21                         payments) that can be converted to common stock under certain parameters
    (“FERA”): A law enacted to expand the Department of Justice’s authority to            at the discretion of the company and must be converted to common stock by
    prosecute crimes related to mortgage fraud, commodities fraud, and fraud              a certain date.
    related to Government assistance related to the economic crisis.
                                                                                          Market Value: Price at which a security could be bought or sold.
    Front Running: Entering into a trade while taking advantage of advance
    knowledge of pending orders from other investors.                                     Mark-to-Market: Assets are carried at fair value on a continual basis with
                                                                                          periodic changes in the fair value. Fluctuations in value are shown in the
    Government-Sponsored Enterprises (“GSEs”): Private corporations                       corporate earnings.
    created by the Government to reduce borrowing costs. They are chartered by
    the U.S. Government but are not considered to be direct obligations.                  Moratorium: An authorized period to delay the payment of a debt obligation.

    Haircut: Difference in the value of the collateral and the value of the loan          Mortgage-Backed Securities (“MBS”): A set of similar mortgages bundled
    (the loan value is less than the collateral value).                                   together by a financial institution and sold as one security — a type of ABS.

    Illiquid Market: A market in which assets cannot be quickly converted to              “Most-Favored-Nations” Clause: A clause in an agreement granting to one
    cash.                                                                                 entity the same terms as are then or may thereafter be granted to any other
                                                                                          entity.
    Index Fund: Portfolio that tracks an established index, and thus requires
    minimal research on the part of the asset manager — typically providing a             Most Highly Compensated Employee: The employee of a TARP recipient
    lower management fee structure.                                                       whose total annual compensation is determined to be the highest among all
                                                                                          employees, where “annual compensation” includes the dollar value for total
    Insolvent: A company’s total liabilities (debts) are greater than its total assets.   compensation as determined pursuant to federal securities laws reduced by
                                                                                          the amount required by the employee’s defined benefit and pension plans.
    Insurance Premium Finance Loans: Loan issued to small businesses so
    they may obtain property or casualty insurance.                                       Municipal Lending: Loans to city and state governments.

    Interim Security: In the case of the Citigroup exchange, a preferred stock            Mutual Banks: Depository institutions that are owned by their depositors
    that is convertible and designated as a common stock equivalent.                      and do not have a holding company associated with them.

    International Securities Identification Number (“ISIN”): Unique iden-                 Mutual Holding Company: A bank or savings and loan holding company
    tifying number assigned to all internationally traded securities (similar to a        that is part of a mutual bank that is owned by depositors; distributes income
    social security number).                                                              in proportion to the amount of business that members do with the company.

    “Know Your Customer” Requirements: A money-laundering and terrorist-                  Net Assets: The value of all of the assets minus any debt associated with
    financing prevention measure requiring institutions to obtain customer                those assets.
    information beyond basic identification information.
                                                                                          Net Present Value (“NPV”): The present value of the estimated future cash
    Legacy Assets: Also commonly referred to as troubled or toxic assets, legacy          inflows minus the present value of the cash outflows.
    assets are real estate-related loans and securities (legacy loans and legacy
    securities) that remain on banks’ balance sheets that have lost value but are         New Chrysler: The entity that purchased substantially all of Chrysler’s assets
    difficult to price due to the recent market disruption.                               during bankruptcy.

    Legacy Loans: Underperforming real estate-related loans held by a bank that           New GM: The entity that purchased substantially all of GM’s assets
    it wishes to sell, but recent market disruptions have made difficult to price.        during bankruptcy.

    Legacy Securities: Troubled real estate-related securities (RMBS, CMBS),              Non-Cumulative Preferred Stock: Shares where unpaid dividends do not
    and other asset-backed securities (“ABS”) lingering on institutions’ balance          accrue when a company does not make a dividend payment.
    sheets because their value could not be determined.
                                                                                          Nonexempt Assets: Property that belongs to a debtor which can be liqui-
    Leverage Cap: For the purposes of PPIP, a limit to the amount of debt a               dated to satisfy creditor claims. Examples include motor vehicles, real estate,
    PPIF can assume based on its equity. Calculated as: total debt / net assets.          factories, etc.
                                                                                                                  GLOSSARY I APPENDIX A I JULY 21, 2009                 3


Notional: Face Value                                                                Say on Pay: A non-binding vote by shareholders with respect to the compa-
                                                                                    ny’s executive compensation, as disclosed pursuant to SEC regulations.
Ownership Change: Under U.S. income tax law, an ownership change will
occur if an owner that controls at least 5% of the company increases its            SCAP Buffer: The amount of capital needed for an institution to sustain a
holding by 50% or more over a rolling three-year period.                            6% Tier One Ratio and a 4% Tangible Common Equity Ratio under the more
                                                                                    adverse economic scenario.
Par Value: The dollar value assigned to a security by the issuer.
                                                                                    Secondary Market: The secondary market, also known as the aftermarket, is
Preferred Stock: Equity ownership that usually pays a fixed dividend, gives         the financial market where previously issued securities and financial instru-
the holder a claim on corporate earnings superior to common stock owners,           ments such as stock, bonds, options, and futures are bought and sold.
and has no voting rights. Preferred stock also has priority in the distribution
of assets in the case of liquidation of a bankrupt company.                         Second-Lien Debt: Debt that is ranked lower than senior debt in the event
                                                                                    of a liquidation or bankruptcy restructuring.
Primary Dealers: Banks and securities broker-dealers that trade in U.S.
Government securities with the Federal Reserve Bank of New York for the             Section 402 of Helping Families Save Their Homes Act of 2009
purpose of carrying out open market operations. There are currently 16              (“Ensign-Boxer Amendment”): Amendment to Helping Families Save Their
primary dealers.                                                                    Homes Act of 2009 that calls for increased PPIP oversight and allocates an
                                                                                    additional $15 million to SIGTARP with the direction that these funds be
Private-Label Mortgages: Loans that are not owned or guaranteed by                  prioritized for performance audits and investigations of recipients of non-
Fannie Mae, Freddie Mac, Ginnie Mae, or another Federal agency.                     recourse loans under any EESA-funded program.

Pro Forma: In finance, refers to the presentation of hypothetical financial         Secured Creditor: A creditor that holds a special assurance of debt
information assuming that certain assumptions will happen. For example,             payment, through holding collateral or possessing a lien on the same.
the ownership interests in New Chrysler based on the assumption that
Fiat will meet its performance goals and obtain an additional 15% of equity         Securities Exchange: An agreement between a firm and investors, permit-
from the other equity holders. If the new equity stake were not reported pro        ting the investors to exchange one class of securities for another.
forma, the equity interest of the other equity participants would be higher to
account for Fiat’s additional 15%.                                                  Senior Executive Officer (“SEO”): A “named executive officer” of a TARP
                                                                                    recipient as defined under federal securities law, which generally includes the
Professional Forecaster: Economic expert firms that use various economic            principal executive officer (“PEO”), principal financial officer (“PFO”), and
data to publish their own projections. The three forecasters used for the           the next three most highly compensated employees.
purpose of the stress test were the Consensus Forecasts, the Blue Chip
Survey, and the Survey of Professional Forecasters. They are independent of         Senior Preferred Stock: Shares that give the stockholder priority dividend
Treasury.                                                                           and liquidation claims over junior preferred and common stockholders.

Public-Private Investment Program (“PPIP”): A coordinated effort                    Senior Securities: A debt or equity security that has a higher priority over
between Treasury and FDIC to improve the health of financial institutions           others.
holding real estate-related assets. The program is designed to increase the
flow of credit throughout the economy by partnering with private investors          Servicer: Administrative party that collects payments and generates reports
to purchase real estate-related loans (“legacy loans”) and real estate-related      regarding mortgage payments.
securities (“legacy securities”) from financial institutions.
                                                                                    Servicing Advance Receivables: Receivables related to residential mortgage
Qualifying Financial Institution (“QFI”): Private and public U.S.-                  loan securitizations that grant the servicer first priority in any insurance
controlled banks, savings associations, bank holding companies, certain             or liquidation proceeds from a loan, and, if those proceeds are insuffi-
savings and loan holding companies, and mutual organizations.                       cient, grants the servicer a first priority to general collections of the related
                                                                                    securitization.
Recognized: Gains or losses that occur when an asset is re-valued or sold.
                                                                                    Skin in the Game: Equity stake in an investment; down payment; the
Residential Mortgage-Backed Securities (“RMBS”): A financial instru-                amount an investor can lose.
ment that is backed by a group of residential real estate mortgages that are
packaged together.                                                                  Solvency: A company’s ability to pay its debts with available cash.

Reverse Stock Split: A method used by corporations to reduce the number             Special Purpose Vehicle (“SPV”): An off-balance sheet legal entity that
of shares outstanding and increase the share price proportionally. The total        holds the transferred assets presumptively beyond the reach of the entities
value of the shares outstanding remains the same. Based on the AIG reverse          providing the assets (e.g., legally isolated).
stock split, if a shareholder owned 100 shares of common stock valued at $1
before the 1-for-20 reverse stock split, after the reverse stock split the share-   Subscription: Process of investors signing up and committing to invest in a
holder would own 5 shares of stock valued at $20 each.                              financial instrument before the actual closing of the purchase.

Ring-Fencing: Segregating assets from the rest of a financial institution,          Supplier Financing: The purchase of accounts receivables of small- and
often so that asset problems can be addressed in isolation.                         medium-sized businesses.

Risk-Weighted Assets: The amount of a bank’s total assets after applying an         Systemically Significant: A financial institution whose failure would impose
appropriate risk factor to each asset.                                              significant losses on creditors and counterparties, call into question the
                                                                                    financial strength of other similarly situated financial institutions, disrupt
Round Tripping: Buying an asset from an entity and reselling the asset back         financial markets, raise borrowing costs for households and businesses, and
to the entity or its affiliates.                                                    reduce household wealth.

Savings and Loan Holding Company (“SLHC”): A company (other than a
BHC) that controls a savings association.
4              APPENDIX A I GLOSSARY I JULY 21, 2009



    T1 Common (also known as TCE): Calculated by removing all non-                      Sources:
    common elements from T1, e.g., preferred equity, minority interests, and            All Business, “Loan Servicer,” http://www.allbusiness.com/glossaries/loan-servicer/4962026-1.html,
    trust preferred securities. It can be thought of as the amount that would           accessed 6/12/2009.
    be left over if the bank were dissolved and all creditors and higher levels of      Citigroup, “What Citi is Doing to Expand the Flow of Credit, Support Homeowners and Help the U.S.
                                                                                        Economy, TARP Progress Report for First Quarter 2009,” 5/12/2009, www.citigroup.com , accessed
    stock, such as preferred stock, were paid off. T1 Common is the highest             6/1/2009.
    “quality” of capital in the sense of providing a buffer against loss by claimants   Citigroup, Exchange Agreement, 6/9/2009, www.sec.gov, accessed 6/10/2009.
    on the bank. T1 Common is used in calculating the tier-one common ratio
                                                                                        Commodities and Futures Trading Commission, “CFTC Glossary,” no date, http://www.cftc.gov/education-
    (“T1 Common Ratio”) which determines what percentage of a bank’s total              center/glossary/glossary_co.html, accessed 7/10/2009.
    assets is categorized as T1 Common. The higher the percentage, the better           Congressional Budget Office, “The Budget and Economic Outlook,” www.cbo.gov/budget/glossary.
    capitalized the bank. Preferred stock is an example of capital that is counted      shtml#C, accessed 4/8/2009.
    in T1, but not in T1 Common.                                                        FASB, “Press Release,” http://www.fasb.org/cs/ContentServer?c=FASBContent_C&pagename=FASB/
                                                                                        FASBContent_C/NewsPage&cid=1176156338441, accessed 6/15/2009.
    T1 or “core capital”: Consists primarily of common equity (including                FDIC, “FAQS- Supervisory Capital Assessment Program,” 2/25/2009, www.fdic.gov, accessed
    retained earnings), limited types and amounts of preferred equity, certain          3/25/2009.
    minority interests, and limited types and amounts of trust preferred securi-        Federal Deposit Insurance Company, Federal Deposit Insurance Act, 2/29/2008, p. 1065, www.fdic.gov/
                                                                                        regulations/laws/rules/1000-400.html, accessed 1/28/2009.
    ties. T1 does not include goodwill and certain other intangibles. Certain
    other assets are also excluded from T1. It can be described as a measure of         “Federal Reserve Board, “Basel II Capital Accord,” Notice of Proposed Rulemaking, March 30, 2006,
                                                                                        http://www.Federalreserve.gov/generalinfo/Basel2/DraftNPR/NPR/section_4.htm. Citigroup and Bank of
    the bank’s ability to sustain future losses and still meet depositor’s demands.     America 8Ks, accessed 7/2/2009.
    Federal regulators look at T1 to calculate the tier-one capital ratio (“T1          Federal Reserve Board, Comments on SIGTARP draft report, 1/29/2009.
    Ratio”), which determines what percentage of a bank’s total assets is catego-       Federal Reserve, response to SIGTARP draft, 7/10/2009.
    rized as T1. Under traditional Federal regulations, a bank with a T1 Ratio of
                                                                                        Federal Reserve, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009.
    4% or greater is considered adequately capitalized.
                                                                                        FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 5/19/2009, www.newyork-
                                                                                        fed.org/markets/talf_terms.html, accessed 5/20/2009.
    Tangible Common Equity (“TCE”): = T1 – Preferred equity – Minority
                                                                                        GAO, “Small Business Administration: Additional Guidance on Documenting Credit Elsewhere Decisions
    interests – Trust preferred securities.                                             Could Improve 7(a) Program Oversight,” 2/12/2009, www.gao.gov, accessed 3/17/2009.
                                                                                        GAO-05-734SP, “A Glossary of Terms Used in the Federal Budget Process, September 2005,” http://
    Tax Gross Up: A reimbursement of taxes owed with respect to any                     www.gao.gov/new.items/d05734sp.pdf, accessed 1/28/2009.
    compensation.                                                                       House of Representatives, “Testimony of Robert H. Herz , Chairman, Financial Accounting Standards
                                                                                        Board before the U.S. House of Representatives Financial Services Subcommittee On Capital Markets,
    Temporary Investments: For the purposes of PPIP, they are cash,                     Insurance, and Government Sponsored Entities,“ 3/12/2009, www.fasb.org/testimony/03-12-09_pre-
                                                                                        pared_statement.pdf, accessed 6/15/2009.
    Treasuries, money market mutual funds, and interest rate hedges.
                                                                                        IRS, “IRS Form 1099-C: Cancellation of Debt,” no date, www.lsnv.org/Debt_Cancellation_Vignette.doc,
                                                                                        accessed 6/9/2009.
    Term: The period of time assigned as the lifespan of any investment.
                                                                                        National Information Center, “Institution Types Defined,” www.ffiec.gov/nicpubweb/Content/HELP/
                                                                                        Institution%20Type%20Description.htm, accessed 1/28/2009.
    Tier One Capital (“T1”): = Common stockholders’ equity + Preferred equity           Office of Financial Stability, response to SIGTARP draft, 7/9/2009.
    (subject to regulatory limits) + Minority interests + Trust preferred securities
                                                                                        Securities and Exchange Commission, “Reverse Stock Split,” http://sec.gov/answers/reversesplit.htm,
    (subject to regulatory limits) – Goodwill – Certain other assets (subject to        accessed 7/10/2009.
    regulatory limits).                                                                 Securities and Exchange Commission,”CUSIP,” http://www.sec.gov/answers/cusip.htm, accessed
                                                                                        4/6/2009.
    Tier One Risk-based Capital Ratio (“T1 Ratio”): T1/Risk-weighted assets             Senatus, “Senate Adopts Boxer / Ensign PPIP Accountability Amendment to Helping Families Save Their
                                                                                        Homes Act,” 5/6/2009, http://senatus.wordpress.com/2009/05/05/senate-adopts-boxer-ensign-ppip-
    Tier One Common Equity (“T1 Common”):                                               accountability-amendment-to-helping-families-save-their-homes-act, accessed 7/7/2009.
    = T1 – Preferred equity – Minority interests – Trust preferred securities.          The Library of Congress, “House Report 104-863 Making Omnibus Consolidated Appropriations for Fiscal
                                                                                        Year 1997,” no date, www.thomas.gov, accessed 4/6/2009.
    Tier One Common Risk-based Ratio (“T1 Common Ratio”):                               Treasury Press Release, “Treasury Department Releases Details on Public-Private Partnership Investment
                                                                                        Program,” 3/23/2009, http://www.treas.gov/press/releases/tg65.htm, accessed 7/7/2009.
    T1 Common / Risk-weighted assets
                                                                                        Treasury, “Decoder,” no date, http://www.financialstability.gov/roadtostability/decoder.htm, accessed
                                                                                        4/9/2009.
    Treasury-Owned Preferred Stock: Comprises CPP preferred stock, AGP
                                                                                        Treasury, “Ethical Standards and Conflict of Interest Rules for Public-Private Investment Fund Managers,”
    preferred stock, and TIP preferred stock.                                           no date, Provided by SIGTARP 7/2/2009.
                                                                                        Treasury, “Legacy Securities Public-Private Investment Program Compliance and Risk Management,”
    Trust Preferred Security: A security that has both equity and debt char-            7/2/2009.
    acteristics, created by establishing a trust and issuing debt to it. A company      Treasury, “Letter of Intent and Term Sheet,” 7/8/2009, www.financialstability.gov/docs/S-PPIP_LOI_Term-
    would create a trust preferred security to realize tax benefits, since the trust    Sheets.pdf, accessed 7/8/2009.
    is tax deductible.                                                                  Treasury, “Securities Purchase Agreement dated as of April 17, 2009 between American International
                                                                                        Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/
    Trustee: A person who holds property on behalf of a beneficiary.                    agreements/Series.F.Securities.Purchase.Agreement.pdf, accessed 6/8/2009.
                                                                                        Treasury, “TARP Capital Purchase Program, Senior Preferred Stock and Warrants, Summary of Preferred
                                                                                        Terms,” 10/14/2008, www.treas.gov, accessed 1/25/2009.
    Unpaid Principal Balance (“UPB”): Amount of a loan that is unpaid. This
    does not include additional charges, such as interest.                              Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.
                                                                                        financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
                                                                                        Treasury, “Treasury Announces New Restrictions on Executive Compensation,” 2/4/2009, www.treas.gov,
    Warrant: The right, but not the obligation, to purchase a certain number of         accessed 3/20/2009.
    shares of common stock at a fixed price.
                                                                                        Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed
                                                                                        3/17/2009.
    Weighted Average Life: The average number of years for which each dollar            White House Press Release, “Reforms for American Homeowners and Consumers,” 5/20/2009, http://
    of unpaid principal on a loan or mortgage remains outstanding.                      www.whitehouse.gov/the_press_office/Reforms-for-American-Homeowners-and-Consumers-President-
                                                                                        Obama-Signs-the-Helping-Families-Save-their-Homes-Act-and-the-Fraud-Enforcement-and-Recovery-Act,
                                                                                        accessed 7/7/2009.
                                                                                ACRONYMS AND ABBREVIATIONS I APPENDIX B I JULY 21, 2009    207




ACRONYMS AND ABBREVIATIONS

ABCP           Asset-Backed Commercial Paper                          FBI                Federal Bureau of Investigation
ABS            Asset-Backed Securities                                FDIC               Federal Deposit Insurance Corporation
AGP            Asset Guarantee Program                                FERA               Fraud Enforcement Recovery Act of 2009
AIA            American International Assurance Company               FFELP              Federal Family Educational Loan Program
AIFP           Automotive Industry Financing Program                  FHA                Federal Housing Administration
AIG            American International Group, Inc.                     FHFA               Federal Housing Finance Agency
AIGFP          AIG Financial Products Corp.                           FHLB               Federal Home Loan Bank
AIGI           Assistant Inspector General for Investigations         FinCEN             Financial Crimes Enforcement Network
ALICO          American Life Insurance Company                        FOMC               Federal Open Market Committee
AMLF           Asset-Backed Commercial Paper Money Market Mutual      FRBNY              Federal Reserve Bank of New York
               Fund Liquidity Facility                                FSB                Financial Stability Plan
ARRA           American Recovery and Reinvestment Act of 2009         FSOB               Financial Stability Oversight Board
ASSP           Auto Supplier Support Program                          FTC                Federal Trade Commission
AWCP           Auto Warranty Commitment Program                       GAO                Government Accountability Office
BHC            Bank Holding Company                                   GM                 General Motors Corporation
BPA            Blanket Purchase Agreement                             GMAC               GMAC LLC
CAO            Chief Accounting Officer                               GNMA               Government National Mortgage Association
CAP            Capital Assistance Program                             Governors          Board of Governors of the Federal Reserve
CBO            Congressional Budget Office                            GSEs               Government–Sponsored Enterprises
CDO            Collateralized Debt Obligation                         HAMP               Home Affordable Modification Program
CDS            Credit Default Swaps                                   HARP               Home Affordable Refinance Program
CEO            Chief Executive Officer                                HERA               Housing and Economic Recovery Act
CMBS           Commercial Mortgage-Backed Securities                  IAA                Inter-Agency Agreement
COI            Conflict of Interest                                   ICE                U.S. Immigration and Customs Enforcement
COP            Congressional Oversight Panel                          IG                 Inspector General
CP             Commercial Paper                                       IMF                International Monetary Fund
CPFF           Commercial Paper Funding Facility                      IRS-CI             Internal Revenue Service Criminal Investigation
CPP            Capital Purchase Program                               ISIN               International Securities Identification Number
CU SIP         Credit Union System Investment Program                 JEC                Joint Economic Committee
DDA            Demand Deposit Accounts                                LIBOR              London Interbank Offered Rate
DGP            Debt Guarantee Program                                 LTV                Loan-to-Value
DIF            Deposit Insurance Fund                                 MBS                Mortgage-Backed Securities
DIP            Debtor in Possession                                   MCP                Mandatorily Convertible Preferred Shares
DOJ            Department of Justice                                  MHA                Making Home Affordable
DTI            Debt to Income                                         MMIFF              Money Market Investor Funding Facility
EESA           Emergency Economic Stabilization Act of 2008           MMMF               Money Market Mutual Fund
Ensign-Boxer   Section 402 of Helping Families Save Their Homes Act   Moody’s            Moody’s Investors Services
Amendment      of 2009
                                                                      NAB                New Arrangements to Borrow
FAS157-4       Financial Accounting Standard 157-4
                                                                      NCUA               National Credit Union Administration
FASB           Financial Accounting Standards Board
                                                                      NCUSIF             National Credit Union Share Insurance Fund
FBA            Federal Banking Agency
                                                                      NOW                Negotiable Order of Withdrawal
208             APPENDIX B I ACRONYMS AND ABBREVIATIONS I JULY 21, 2009




      NPV               Net Present Value                                         STPP             Short Term Purchase Program
      NRSRO             Nationally Recognized Statistical Rating Organization     T1               Tier One Capital
      NY HIFCA          New York High Intensity Financial Crime Area              T1 Common        Tier One Common Equity
      OFS               Office of Financial Stability                             T1 Common        Tier One Common Risk-Based Ratio
      OMOs              Open Market Operations                                    Ratio

      OPIC              Overseas Private Investment Corporation                   T1 Ratio         Tier One Risk-Based Capital Ratio

      PDCF              Primary Dealer Credit Facility                            TAF              Term Auction Facility

      PEO               Principal Executive Officer                               TAG              Transaction Account Guarantee

      PFO               Principal Financial Officer                               TALF             Term Asset-Backed Securities Loan Facility

      PIK               Payment-in-Kind                                           TARP             Troubled Asset Relief Program

      PPIF              Public-Private Investment Fund                            TARP-IG Council TARP Inspector General Council

      PPIP              Public-Private Investment Program                         TCCULGP          Temporary Corporate Credit Union Liquidity Guarantee
                                                                                                   Program
      PSPA              Preferred Stock Purchase Agreement
                                                                                  TCE              Tangible Common Equity
      QFI               Qualifying Financial Institution
                                                                                  TCE Ratio        Tangible Common Equity Ratio
      REIT              Real Estate Investment Trust
                                                                                  the CODE         The United States Bankruptcy Code
      Repo’s            Tri-Party Repurchase Agreements
                                                                                  the Committee    Board Compensation Committee
      RMBS              Residential Mortgage-Backed Securities
                                                                                  the Rule         Interim Final Rule on TARP Standards for Compensation
      S&P               Standard & Poor’s                                                          and Corporate Governance
      SBA               Small Business Administration                             TIP              Targeted Investment Program
      SCAP              Supervisory Capital Assessment Program                    TLGP             Temporary Liquidity Guarantee Program
      SEC               Securities and Exchange Commission                        TOP              TSLF Options Program
      Section 13        Section 13 of the Federal Reserve Act                     TPP              Treasuries Purchase Program
      SEO               Senior Executive Officer                                  Treasury         U.S. Department of the Treasury
      SIGTARP           Special Inspector General for the Troubled Asset Relief   TSLF             Term Securities Lending Facility
                        Program
                                                                                  UCSB             Unlocking Credit for Small Businesses
      SLHC              Savings and Loan Holding Company
                                                                                  UPB              Unpaid Principal Balance
      SOMA              System Open Market Account
                                                                                  USPIS            U.S. Postal Inspection Service
      SPA               Securities Purchase Agreement
                                                                                  VA               Department of Veterans Affairs
      Special Master    Office of the Special Master
                                                                                  WFO              FBI’s Washington Field Office
      SPV               Special Purpose Vehicle
      SSFI              Systemically Significant Failing Institutions
226           APPENDIX E I PUBLIC ANNOUNCEMENTS OF AUDITS I JULY 21, 2009




      PUBLIC ANNOUNCEMENTS OF                                               C. GAO3
      AUDITS                                                                Ongoing Audits
      This appendix provides an announcement of new and                     •	 CPP Approval and Return Process:  Review Treasury’s
      ongoing public audits by the agencies listed below. See                  process as well as regulators’ processes for approval, as well
      Appendix F: “Key Oversight Reports and Testimonies” for a                as Treasury and regulators’ application of criteria for repay-
      listing of published reports. Italics style indicates narrative          ment. Probable Fall issuance.
      taken verbatim from the agencies’ responses to SIGTARP’s              •	 AIG Oversight:  Reviewing Treasury and Federal Reserve’s
      data call.                                                               oversight of AIG, including involvement in management
           A.	 U.S. Department of the Treasury Inspector General 		            and decision making.
      	         (“Treasury OIG”)                                            •	 Citigroup:  (partnering with SIGTARP) How did Treasury
           B.	 Inspector General for the Board of Govenors of the 		           decide to assist Citigroup; analysis of Citigroup’s condition,
      	         Federal Reserve System (“Federal Reserve OIG”)                 and Treasury’s ongoing monitoring efforts. Some in June
           C.	 Government Accountability Office (“GAO”)                        report but more in the Fall.
           D.	 Federal Deposit Insurance Corporation (“FDIC 		              •	 PPIP and TALF:  Evaluate oversight systems, monitor activi-
      	         OIG”)                                                          ties, and evaluate indicators of success. Depending on level
                                                                               of activity Fall or toward end of calendar year.
      A. Treasury OIG1                                                      •	 Auto Industry: What is the Treasury’s exit strategy with
      Ongoing Audits                                                           respect to this program? Fall.
      •	 Case study of Treasury’s selection of City National Bank,          •	 Financial Audit of TARP:  Due November 15, 2009.
         Beverly Hills, California, to receive $400 million under the       •	 Effect of TARP on Treasury’s Debt Management:  Late this
         Capital Purchase Program (CPP). [Treasury OIG] issued                 year or early next year.
         [its] engagement letter on this audit on December 4, 2008,
         and held entrance conferences with Treasury officials on           New Audits
         December 11, 2008, and Office of the Comptroller of the            •	 Partnering with SIGTARP on oversight of government 	
         Currency officials on January 6, 2009. [Treasury OIG’s] work          management of formerly private sector entities.
         on this audit is ongoing. [Treasury OIG] anticipates issuing
         the discussion draft report on this project during July 2009.      D. FDIC OIG4
      •	 At the request of Senator Charles Grassley, Ranking Minority       Ongoing Evaluation
         Member of the Senate Finance Committee, [Treasury OIG              •	 Evaluation of the FDIC’s Consideration of Capital
         is] conducting an inquiry into the role of the Department             Regulatory Relief Requests from OneUnited:  The objective
         in reviewing and commenting on the commitment by AIG’s                of this evaluation was to review the FDIC’s actions related
         Financial Products division to pay bonuses to certain employ-         to OneUnited’s request for (1) relief from devalued GSE
         ees. [Treasury OIG is] focusing the inquiry on the role of the        securities and favorable treatment of corresponding deferred
         Treasury Office of General Counsel in reviewing the assertion         tax assets and (2) CPP funding. (Please note that the draft
         that such payments were mandated by contract and by various           and final versions of this report will not be made publicly
         state laws.                                                           available because it is predecisional and contains confiden-
                                                                               tial open bank information.)
      B. Federal Reserve OIG2
      Ongoing Audits                                                        Endnotes
      •	 Audit of the Board of Governors of the Federal Reserve             1
                                                                                Treasury OIG, response to SIGTARP data call, 7/8/2009.
         System’s (Board) processing of Capital Purchase Program 	          2
                                                                                Federal Reserve OIG, response to SIGTARP data call, 7/10/2009.
         applications from Board-supervised financial institutions          3
                                                                                GAO, response to SIGTARP data call, 7/8/2009.
      •	 Review of the Federal Reserve’s Lending Facilities and Special     4
                                                                                FDIC OIG, response to SIGTARP data call, 7/7/2009.
         Programs
                                                                             KEY OVERSIGHT REPORTS AND TESTIMONIES I APPENDIX F I JULY 21, 2009       1




KEY OVERSIGHT REPORTS AND TESTIMONIES
This list reflects TARP-related reports and testimonies published since SIGTARP’s last quarterly report. See SIGTARP’s April
2009 Quarterly Report to Congress for a list of prior reports and testimonies.			

U.S. DEPARTMENT OF THE TREASURY (TREASURY)
ROLES AND MISSION
The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively;
promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
institutions.
OVERSIGHT REPORTS
Treasury, Tranche Report, 11/3/2008- 6/3/2009, www.financialstability.gov/latest/reportsanddocs.html, accessed 7/9/2009. (for every $50 billion
committed)
Treasury, Transactions Report, 11/7/2008-7/2/2009, www.financialstability.gov/latest/reportsanddocs.html, accessed 7/9/2009. (released weekly)
Treasury, Section 105(a) Report, 12/5/2008- 6/10/2009, www.financialstability.gov/latest/reportsanddocs.html, accessed 7/9/2009.
Treasury, Section 102 Report, 12/31/2008, www.financialstability.gov/latest/reportsanddocs.html, accessed 7/9/2009.
Treasury, “The U.S. Treasury Department Summary Response to Recommendations in the January 2008 GAO Report,” 1/16/2009, http://www.
financialstability.gov/latest/reportsanddocs.html, accessed 7/9/2009.
Treasury, “Regulatory Reform Over-The-Counter (OTC) Derivatives,” 3/13/2009, http://www.financialstability.gov/latest/tg_05132009.html, accessed
7/9/2009.
Treasury, “The U.S. Treasury Department Summary Response to Recommendations in the January 2009 GAO Report,” 3/18/2009, http://www.
financialstability.gov/latest/reportsanddocs.html, accessed 7/9/2009.
Treasury, “U.S. Treasury Department 100 Days Progress Report,” 4/29/2009, http://www.treas.gov/press/releases/reports/100daysreport_042909.
pdf, accessed 7/9/2009.
RECORDED TESTIMONY
Treasury, “Prepared Statement by Treasury Secretary Tim Geithner at the Inter-American Development Bank’s Annual Meeting of the Boards of
Governors,” 3/29/2009, http://www.financialstability.gov/latest/tgSp3_29_09.html, accessed 7/9/2009.
Treasury, “New Multi-Agency Crackdown on Loan Modification Fraud and Foreclosure Rescue Scams,” 4/6/2009, http://www.financialstability.gov/latest/
tgSp40609.html, accessed 7/9/2009.
Treasury, “Treasury Secretary Tim Geithner Written Testimony,” Congressional Oversight Panel, 4/21/2009, http://www.financialstability.gov/latest/
tgSp40609.html, accessed 7/9/2009.
Treasury, “Treasury Secretary Tim Geithner Opening Remarks – As Prepared for Delivery Congressional Oversight Panel,” 4/21/2009, http://www.
financialstability.gov/latest/tg90.html, accessed 7/9/2009.
Treasury, “Secretary Timothy F. Geithner Remarks before The Economic Club of Washington,” 4/22/2009, http://www.financialstability.gov/latest/
tgSp4_22_09.html, accessed 7/9/2009.
Treasury, “Remarks by the Secretary Tim Geithner before the Independent Community Bankers of America,” Annual Washington Policy Summit,
5/13/2009, http://www.financialstability.gov/latest/tg139.html, accessed 7/9/2009.
Treasury, “Treasury Secretary Tim Geithner Written Testimony,” Senate Banking Committee, 5/20/2009, http://www.financialstability.gov/latest/tg139.
html, accessed 7/9/2009.
Treasury, “Secretary Timothy F. Geithner Written Statement,” House Committee on Appropriations Subcommittee on General Government and Financial
Services, 5/21/2009, http://www.financialstability.gov/latest/tg5212009.html, accessed 7/9/2009.
Treasury, “Opening Statement of Herbert M. Allison, Nominee for Assistant Secretary of the Treasury for Financial Stability,” Senate Committee on
Banking, Housing, and Urban Affairs, 6/4/2009, http://www.financialstability.gov/latest/tg157.html, accessed 7/9/2009.
Treasury, “Gene Sperling, Counselor to the Secretary of the Treasury, Opening Statement,” 6/11/2009, the U.S. House of Representatives Committee on
Financial Services, http://www.financialstability.gov/latest/tg166.html, accessed 7/9/2009.
2            APPENDIX F I KEY OVERSIGHT REPORTS AND TESTIMONIES I JULY 21, 2009




    U.S. DEPARTMENT OF THE TREASURY (TREASURY) (CONTINUED)
    Treasury, “Treasury Secretary Timothy F. Geithner Opening Statement,” U.S. Senate Banking Committee Financial Regulatory Reform, 6/18/2009, the
    U.S. House of Representatives Committee on Financial Services, http://www.financialstability.gov/latest/tg166.html, accessed 7/9/2009.
    Treasury, “Assistant Secretary for Financial Stability Herbert M. Allison, Jr. Opening Remarks,” 6/24/2009, Opening remarks before the Congressional
    Oversight Panel, As Prepared for delivery, http://www.financialstability.gov/latest/tg177.html, accessed 7/9/2009.
    FINANCIAL STABILITY OVERSIGHT BOARD (FSOB)
    ROLES AND MISSION
    FSOB is responsible for reviewing the exercise of authority under programs developed in accordance with EESA, including:
    • policies implemented by the Secretary and the Office of Financial Stability, including the appointment of financial agents, the designation of asset
      classes to be purchased, and plans for the structure of vehicles used to purchase troubled assets
    • the effect of such actions in assisting American families in preserving home ownership, stabilizing financial markets, and protecting taxpayers
      In addition, FSOB is responsible for making recommendations to the Secretary on the use of the authority under EESA, as well as for reporting any
      suspected fraud, misrepresentation, or malfeasance to SIGTARP or the U.S. Attorney General.
    OVERSIGHT REPORTS
    FSOB, “Quarterly Report to Congress pursuant to section 104(g) of the Emergency Economic Stabilization Act of 2008,” 4/24/2009, http://www.
    financialstability.gov/latest/reportsanddocs.html, accessed 7/9/2009.
    RECORDED TESTIMONY
    None
    SECURITIES AND EXCHANGE COMMISSION (SEC)
    ROLES AND MISSION
    SEC administers the federal securities laws, requires disclosure by public companies, and brings enforcement actions against violators of securities law.
    While other federal and state agencies are legally responsible for regulating mortgage lending and the credit markets, SEC has taken these decisive
    actions to address the extraordinary caused by the current credit crisis:
    • aggressively combating fraud and market manipulation through enforcement actions
    • taking swift action to stabilize financial markets
    • enhancing transparency in financial disclosure
    OVERSIGHT REPORTS
    SEC, “Report and Recommendations Pursuant to Section 133 of the Emergency Economic Stabilization Act of 2008: Study on Mark-to-
    Market Accounting,” Office of the Chief Accountant, Division of Corporation Finance, 12/30/2008, http://www.sec.gov/ news/studies/2008/
    marktomarket123008.pdf, accessed 1/22/2009.
    RECORDED TESTIMONY
    SEC, “Testimony Concerning the Oversight and Regulation of Executive Compensation,” Brian V. Breheny, Deputy Director, before the United States
    House of Representatives Committee on Financial Services, 6/11/2009, http://www.sec.gov/news/testimony/2009/ts032009ebw.htm, accessed
    7/9/2009.
    GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
    ROLES AND MISSION
    GAO is tasked with performing ongoing oversight of TARP’s performance, including:
    • evaluating the characteristics of asset purchases and the disposition of assets acquired
    • assessing TARP’s efficiency in using the funds
    • evaluating compliance with applicable laws and regulations
    • assessing the efficiency of contracting procedures
    • auditing TARP’s annual financial statements and internal controls
    • submitting reports to Congress at least every 60 days
    OVERSIGHT REPORTS
    GAO, “Small Business Administration’s Implementation of Administrative Provisions in the American Recovery and Reinvestment Act,” 4/16/2009.
    GAO, “Troubled Asset Relief Program: March 2009 Status of Efforts to Address Transparency and Accountability Issues” GAO-09-504, 3/31/2009,
    http://www.gao.gov/new.items/d09504.pdf, accessed 7/9/2009.
    GAO, “Auto Industry: Summary of Government Efforts and Automakers’ Restructuring to Date,” 4/23/2009, http://www.gao.gov/new.items/d09553.
    pdf, accessed 7/9/2009.
    GAO, “Troubled Asset Relief Program: June 2009 Status of Efforts to Address Transparency and Accountability Issues” (GAO-09-539), 6/17/2009,
    http://www.gao.gov/docsearch/pastsixmonths.html, accessed 7/9/2009.
    GAO, “Troubled Asset Relief Program: Capital Purchase Program Transactions for October 28, 2008, through May 29, 2009, and Information on
    Financial Agency Agreements, Contracts, Blanket Purchase Agreements, and Interagency Agreements Awarded as of June 1, 2009,” 6/17/2009, http://
    www.gao.gov/special.pubs/gao-09-707sp, accessed 7/6/2009.
    RECORDED TESTIMONY
    None
                                                                                KEY OVERSIGHT REPORTS AND TESTIMONIES I APPENDIX F I JULY 21, 2009      3



CONGRESSIONAL OVERSIGHT PANEL (COP)
ROLES AND MISSION
COP is tasked with reviewing the current state of the financial markets and the regulatory system. As a by-product of these oversight activities, COP
is required to produce the following reports to Congress:
• regular reports every 30 days that cover a variety of issues, including administration of the program, the impact of purchases on the financial
  markets/financial institutions, market transparency, and the effectiveness of foreclosure mitigation, minimization of long-term costs, and
  maximization of benefits for taxpayers
• a special report on regulatory reform, published no later than January 20, 2009, analyzing the current state of the regulatory system and its
  effectiveness at overseeing the participants in the financial system and protecting consumers. The report is to provide recommendations for
  improvement regarding whether any participants in the financial markets that are currently outside the regulatory system should become subject to
  the regulatory system, the rationale underlying such recommendation, and whether there are any gaps in existing consumer protections.
OVERSIGHT REPORTS
COP, “Foreclosure Crisis: Working Toward a Solution,” 3/6/2009, http://cop.senate.gov/reports/library/report-030609-cop.cfm, accessed on
7/9/2009.
COP, “Assessing Treasury’s Strategy: Six Months of TARP,” 4/7/2009, http://cop.senate.gov/reports/library/report-040709-cop.cfm, accessed on
7/9/2009.
COP, “Reviving Lending to Small Businesses and Families and the Impact of the TALF,” 5/7/2009, http://cop.senate.gov/reports/library/report-
050709-cop.cfm, accessed on 7/9/2009.
COP, “Stress Testing and Shoring Up Bank Capital,” 6/9/2009, http://cop.senate.gov/reports/library/report-060909-cop.cfm, accessed on
7/9/2009.
RECORDED TESTIMONY
COP, “Oversight Concerns Regarding Treasury Department Conduct of the Troubled Asset Relief Program,” before the House Financial Services
Committee, 12/10/2008, http://cop.senate.gov/documents/testimony-121008-hensarling.pdf, accessed 7/9/2009.
COP, “Pulling Back the TARP: Oversight of the Financial Rescue Program,” Elizabeth Warren, before the Senate Banking Committee, 2/5/2009,
http://cop.senate.gov/documents/testimony-020409-warren.pdf, accessed 7/9/2009.
COP, “A Review of TARP Oversight, Accountability and Transparency for U.S. Taxpayers,” Elizabeth Warren, before the House Financial Services
Committee, Oversight and Investigations Subcommittee, 2/24/2009, http://cop.senate.gov/documents/testimony-022409-warren.pdfs, accessed
7/9/2009.
COP, “TARP Accountability and Oversight: Achieving Transparency,” Damon Silver, tesimony before the Joint Economic Committee, 3/11/2009,
http://cop.senate.gov/documents/testimony-031109-silvers.pdf, accessed 7/9/2009.
COP, “TARP Accountability and Oversight: Achieving Transparency ,” Richard Neiman, before the Joint Economic Committee, Oversight and
Investigations Subcommittee, 3/11/2009, http://cop.senate.gov/documents/testimony-022409-warren.pdf, accessed 7/9/2009.
COP, “TARP Oversight: A Six Month Update,” Elizabeth Warren, before the Senate Finance Committee, Oversight and Investigations Subcommittee,
3/31/2009, http://cop.senate.gov/documents/testimony-022409-warren.pdf, accessed 6/16/2009.
COP, “COP Field Hearing in New York City on Corporate and Commercial Real Estate Lending,” 5/28/2009, http://cop.senate.gov/hearings/library/
hearing-031909-lessons.cfm, accessed on 6/19/2009.
COP, “COP Hearing with Assistant Treasury Secretary Herb Allison,” 6/24/2009, http://cop.senate.gov/hearings/library/hearing-062409-allison.cfm,
accessed 7/9/2009.
OFFICE OF MANAGEMENT AND BUDGET (OMB)
ROLES AND MISSION
OMB’s predominant mission is to assist the President in overseeing the preparation of the federal budget and to supervise its administration in
Executive Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies,
and procedures, assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules,
testimony, and proposed legislation are consistent with the President’s Budget and with Administration policies.

In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of
these areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and
to reduce any unnecessary burdens on the public.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
OMB, “Testimony of Peter R. Orszag, Director of the Office of Management and Budget Before the Committee on the Budget, U.S. House of
Representatives,” 3/3/2009, http://www.whitehouse.gov/omb/assets/testimony/030309_budget.pdf, accessed 7/9/2009.
4             APPENDIX F I KEY OVERSIGHT REPORTS AND TESTIMONIES I JULY 21, 2009




    CONGRESSIONAL BUDGET OFFICE (CBO)
    ROLES AND MISSION
    CBO’s mandate is to provide the Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array
    of programs covered by the federal budget, and the information and estimates required for the Congressional budget process.

    CBO assists the House and Senate Budget Committees, and the Congress more generally, by preparing reports and analyses. In accordance with the
    CBO’s mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.
    OVERSIGHT REPORTS
    CBO, “The Troubled Asset Relief Program: Report on Transactions Through June 17, 2009,” 6/2009, http://www.cbo.gov/ftpdocs/100xx/
    doc10056/06-29-TARP.pdf, accessed 7/9/2009.
    RECORDED TESTIMONY
    CBO, “Addressing the Ongoing Crisis in the Housing and Financial Markets,” 1/28/2009, http://www.cbo.gov/ftpdocs/99xx/doc9971/01-28-
    FinancialMarkets_Testimony.pdf, accessed 7/9/2009.
    CBO, “Estimated Macroeconomic Impacts of H.R.1 as Passed by the Senate and the House,”Douglas W. Elmendorf, Director, before the Committee
    on the Budget U.S. House of Representatives 5/21/2009, http://www.cbo.gov/ftpdocs/100xx/doc10086/05-21-State_of_Economy_Testimony.pdf,
    accessed 7/9/2009.
    FEDERAL RESERVE BOARD (FEDERAL RESERVE)
    ROLES AND MISSION
    Federal Reserve’s duties fall into four general areas:
    • conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
      prices, and moderate long-term interest rates
    • supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the
      credit rights of consumers
    • maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
    • providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating
      the nation’s payments system
    OVERSIGHT REPORTS
    No report issued to date
    RECORDED TESTIMONY
    Federal Reserve, “FRB: Speech--Duke, A Framework for Analyzing Bank Lending--March 30, 2009,” 3/30/2009, http://www.federalreserve.gov/
    newsevents/speech/duke20090330a.htm, accessed 7/9/2009.
    Federal Reserve, “The economic outlook,” Chairman Ben S. Bernanke, Testimony Before the Joint Economic Committee, U.S. Congress, 5/5/2009,
    http://www.federalreserve.gov/newsevents/testimony/2009testimony.htm, accessed 7/9/2009.
    Federal Reserve, “Executive compensation,” Scott G. Alvarez, General Counsel 6/11/2009, http://www.federalreserve.gov/newsevents/
    testimony/2009testimony.htm, accessed 7/9/2009.
       FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
       ROLES AND MISSION
       FDIC is an independent agency created by Congress that maintains the stability and public confidence in the nation’s financial system by insuring
       deposits, examining and supervising financial institutions, and managing receiverships.
       OVERSIGHT REPORTS
       None
       RECORDED TESTIMONY
       FDIC, U.S. House of Representatives, “Statement of John F. Bovenzi, Deputy to the Chairman and Chief Operating Officer, Federal Deposit Insurance
       Corporation on Promoting Bank Liquidity and Lending Through Deposit Insurance, Hope for Homeowners, and Other Enhancements,” Committee on
       Financial Services, 2/3/2009, http://www.fdic.gov/news/news/speeches/chairman/spfeb0309.html, accessed 7/9/2009.
       “FDIC, “Statement of Martin J. Gruenberg, Vice Chairman, Federal Deposit Insurance Corporation on Exploring the Balance Between Increased Credit
       Availability and Prudent Lending Standards before the Financial Services Committee, U.S. House of Representatives; 2128 Rayburn House Office
       Building,” 3/25/2009, http://www.fdic.gov/news/news/speeches/chairman/spmar2509.html, accessed 7/9/2009.
       FDIC, “Remarks by FDIC Chairman Sheila Bair to The Economic Club of New York,” 4/27/09, http://www.fdic.gov/news/news/speeches/chairman/
       spapr2709.html, accessed 7/9/2009.
                                                                                            KEY OVERSIGHT REPORTS AND TESTIMONIES I APPENDIX F I JULY 21, 2009                        5



FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)                                    (CONTINUED)

FDIC, U.S. Senate “Statement of Sheila C. Bair Chairman, Federal Deposit Insurance Corporation on Regulating and Resolving Institutions Considered
“Too Big To Fail”,” Committee on Banking, Housing and Urban Affairs, 5/6/2009, http://www.fdic.gov/news/news/speeches/chairman/spmay0609.
html, accessed 6/16/2009.
FDIC, “Joint Statement by Secretary of the Treasury Timothy F. Geithner, Chairman of the Board of Governors of the Federal Reserve System Ben S.
Bernanke, Chairman of the Federal Deposit Insurance Corporation Sheila Bair, and Comptroller of the Currency John C. Dugan on The Treasury Capital
Assistance Program and the Supervisory Capital Assessment Program,” 5/6/2009, http://www.fdic.gov/news/news/speeches/chairman/spmay0709.
html, accessed 6/16/2009.




SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION
The Office of the Special Inspector General for the Troubled Asset Relief Program (“SIGTARP”) was established by the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits
and investigations of the purchase, management and sale of assets under the Troubled Asset Relief Program (“TARP”). SIGTARP’s goal is to promote
economic stability by assiduously protecting the interests of those who fund the TARP programs — i.e., the American taxpayers. This is achieved by
facilitating transparency in TARP programs, providing effective oversight in coordination with other relevant oversight bodies, and through robust criminal
and civil enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.
OVERSIGHT REPORTS
SIGTARP, “Questions and Answers Regarding the February 6, 2009 SIGTARP Letter,” 2/25/2009, http://www.sigtarp.gov/reports/audit/2009/
Questions_and_Answers_Regarding_Use_of_Funds_Request_Letter.pdf, accessed 6/16/2009.
SIGTARP, “Engagement memo — Review of Federal Oversight of Executive Compensation Requirements Including Bonus Payments to AIG and Other
TARP Recipients,” 3/20/2009, http://www.sigtarp.gov/reports/audit/2009/EM_Review_of_Fed_Oversight_of_Exec_Compensation_Requirements_
Including_Bonus_Payments_to_AIG_and_Other_TARP_Recipients.pdf, accessed 6/16/2009.
SIGTARP, “Engagement Memo - Review of Payment of Counterparty Claims Settled by AIG,” 4/2/2009, http://www.sigtarp.gov/reports/audit/2009/
EM_Review_of_Payment_of_Counterparty_Claims_Settled_by_AIG.pdf, accessed 6/16/2009.
SIGTARP, “Use of Funds Request Letters continued,” 4/14/2009, http://www.sigtarp.gov/reports/audit/2009/Use_of_Funds_Request_Letters_
continued.pdf, accessed 6/16/2009.
SIGTARP, “Use of Funds Request Letters,” 4/14/2009, http://www.sigtarp.gov/reports/audit/2009/Use_of_Funds_Request_Letters.pdf, accessed
6/16/2009.
SIGTARP, “Quarterly Report to Congress,” 4/21/2009, http://www.sigtarp.gov/reports/congress/2009/April2009_Quarterly_Report_to_Congress.pdf,
accessed 6/30/2009.
RECORDED TESTIMONY
None

Note: Italics style indicates verbatim narrative taken from source documents.

Sources:
Treasury, www.treas.gov, accessed 1/30/2009, 3/23/2009, 4/2/2009, 7/9/2009; Treasury Inspector General, www.treas.gov, accessed 1/30/2009, 3/23/2009, 4/2/2009, 7/9/2009; Financial
Stability Oversight Board, www.treas.gov, accessed 1/30/2009, 3/23/2009, 4/2/2009, 7/9/2009; SEC, www.sec.gov, accessed 1/30/2009, 3/23/2009, 4/2/2009, 7/9/2009; GAO, www.gao.gov,
accessed 1/30/2009, 3/23/2009, 4/2/2009, 7/9/2009; COP, www.cop.senate.gov, accessed 1/30/2009, 4/2/2009, 7/9/2009; OMB, www.whitehouse.gov, accessed 1/30/2009, 3/23/2009,
4/2/2009, 7/9/2009; CBO, www.cbo.gov, accessed 1/30/2009, 3/23/2009, 4/2/2009, 7/9/2009; Federal Reserve Board, www.federalreserve.gov, accessed 1/30/2009, 3/23/2009, 4/2/2009,
7/9/2009; FDIC, www.fdic.gov, accessed 1/30/2009, 3/23/2009, 4/2/2009, 7/9/2009; FDIC OIG, www.fdicoig.gov, accessed 4/10/2009, 7/9/2009; OMB, www.whitehouse.gov, accessed
4/2/2009, 7/9/2009; CBO, www.cbo.gov, accessed 4/2/2009, 7/9/2009.		
		
		
		
		
